   September 12, 2003




Acquisition


Air Force Transition of Advanced
Technology Programs to Military
Applications
(D-2003-132)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax
  (703) 604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

ATCs                  Applied Technology Councils
ATD                   Advanced Technology Demonstration
AFRL                  Air Force Research Laboratory
CE                    Critical Experiment
IPT                   Integrated Product Team
MAJCOM                Major Command
S&T                   Science and Technology
TRL                   Technology Readiness Level
TTP                   Technology Transition Plan
          Office of the Inspector General of the Department of Defense
Report No. D-2003-132                                                September 12, 2003
   (Project No. D2002AB-0128)

                Air Force Transition of Advanced Technology
                     Programs to Military Applications

                                Executive Summary

Who Should Read This Report and Why? Science and technology officials in the
Office of the Secretary of Defense and the Department of the Air Force should read this
report because it evaluates the Air Force’s current process for enhancing the likelihood
that emerging technology would reach the warfighter.

Background. Congress and DoD officials have voiced concern that technology has not
quickly transitioned to the warfighter. In 1999, the Commander of Air Force Materiel
Command established the Applied Technology Councils for advanced technology
demonstrations to facilitate the transition of technology projects to the warfighter.

The audit examined 30 S&T projects (24 advanced technology demonstrations and
6 critical experiments) funded from the advanced technology development budget
subcategory of the FY 2003 Air Force research, development, test, and evaluation
appropriation. The 30 S&T projects were valued at $123 million. The 30 S&T projects
had additional planned funding of $222 million from FY 2004 through FY 2007.

Results. Although the Applied Technology Councils created a General Officer and
executive level review for the advanced technology demonstrations and Air Force
Research Laboratory officials perform other management oversight reviews, procedures
should be established to strengthen coordination for all advanced technology
development funded projects with planned technology recipients. Although most
technologies had working-level integrated product teams, the teams had not established
charters to identify roles and responsibilities. Half of the technologies had not
established a transition plan, most had not established agreements on technology
readiness levels and exit criteria with technology recipients, 12 of the working-level
integrated product teams had not documented issues and action items, and 8 of the
13 acquisition recipients had not identified the necessary funding for technologies
scheduled to transition in FYs 2003 and 2004. Also, the performance appraisal process
of S&T officials needs to emphasize technology transitioning as a performance element.

As a result, the Air Force Research Laboratory had planned technology investments of
$222 million for technologies included in this review that had not been fully coordinated
with the transition recipient. In addition, the Air Force recipients had a $529 million
funding shortfall for transitioning technologies scheduled for availability during
FYs 2003 through 2005.
Management Comments and Audit Response. The Assistant Secretary of the Air
Force (Acquisition) agreed with the report’s conclusions on the role of the acquisition
program managers and the need to define the relationships and responsibilities between
the science and technology managers and the acquisition program managers. However,
the Assistant Secretary did not agree that all advanced technology developments need the
same level of management controls and made a distinction between advanced technology
demonstration programs and critical experiments. As a result, the Assistant Secretary
generally nonconcurred with the recommendations pertaining to critical experiments.
See the Finding section of the report for a discussion of management comments and the
Management Comments section for the complete text of the comments.

Management comments were generally nonresponsive to the report and its
recommendations. We believe that there is no significant difference between advanced
technology demonstration programs and critical experiments because both use advanced
technology development funds. The audit identified improvements that are needed to
coordinate technology development with planned technology recipients. Also,
technologies are being developed that do not have the necessary technology transitioning
funds or for which the transition funds are inadequate. We request that the Assistant
Secretary of the Air Force (Acquisition) provide comments on the final report.
Comments should be received by October 14, 2003.




                                           ii
Table of Contents
Executive Summary                                                       i

Background                                                             1

Objectives                                                             3

Finding
     Air Force Science and Technology Process                           4

Appendixes
     A. Scope and Methodology                                          20
         Management Control Program Review                             21
         Prior Coverage                                                21
     B. Technology Readiness Levels and Their Definitions              22
     C. Summary of Advanced Technology Development Products Reviewed   23
     D. Report Distribution                                            30

Management Comments
     Assistant Secretary of the Air Force (Acquisition)                33
Background
    Defense Acquisition. The Deputy Secretary of Defense issued DoD Directive
    5000.1, “The Defense Acquisition System,” on May 12, 2003. The directive
    states that science and technology (S&T) programs shall address user needs;
    maintain a broad-based program spanning all Defense-relevant sciences and
    technologies to anticipate future needs and those not being pursued by civil or
    commercial communities; preserve long-range research; and enable rapid
    successful transition from the S&T base to useful military products. Advanced
    technology shall be integrated into producible systems and deployed in the
    shortest time practical. Teaming among warfighters, users, developers, acquirers,
    technology experts, industry, testers, budgeting officials, and system maintainers
    shall begin during requirements definition.

    Science and Technology Guidance. An affordability task force chartered by the
    Director for Defense Research and Engineering issued a handbook and the
    Deputy Under Secretary of Defense for Science and Technology issued a guide to
    the Military Departments and Defense agencies concerning practices that they
    believed, if instituted, would assist in transitioning technology. Subsequently, the
    Under Secretary of Defense for Acquisition, Technology, and Logistics issued a
    Manager’s Guide that reemphasized the issues on technology management cited
    in the handbook and the guide. In addition, in response to congressional concerns
    that DoD had not been successful in transitioning technology, the Under Secretary
    of Defense for Acquisition, Technology, and Logistics issued a report to Congress
    identifying why technology was not transitioning.

            Addressing Affordability in Defense Science and Technology (S&T):
    A Handbook for S&T Managers. In October 1999, the DoD S&T Affordability
    Task Force issued a Handbook that stresses the importance of early involvement
    of all candidate acquisition programs in advanced technology efforts. The
    Handbook states that early involvement of advanced technology candidate
    acquisition programs in research development, design, test planning,
    manufacturing, training, logistics, financing, and contracting are essential to
    address key issues that lock in a majority of the life-cycle costs of programs. The
    Handbook states that management tools for ensuring effective technology
    transitioning include establishing integrated product teams (IPTs), creating IPT
    charters, identifying quantitative metrics and key exit criteria, and developing a
    formal transition plan that is officially signed by the technology manager and the
    “customer” (usually an acquisition community member). Additional management
    tools include preparing an approved memorandum of agreement or understanding
    that includes roles and responsibilities of the various participants and a funding
    strategy, which commits the acquisition community to transition the technology.

            Technology Transition for Affordability: A Guide for S&T Program
    Managers. In April 2001, the Deputy Under Secretary of Defense for Science
    and Technology issued a Guide to provide S&T managers with strategies to
    transition technology to the acquisition community. The Guide states that the
    transition of technology should be timely (get the technology in the hands of the
    warfighter as soon as possible) and cost-effective (provide the best technology at


                                         1
the lowest possible cost). The Guide states that a key strategy for transitioning
technology is early coordination between the S&T project manager and the
receiving acquisition manager to promote a mutual understanding between the
two parties.

The Guide states that IPTs should include the S&T product manager, the S&T
contractor, the acquisition manager(s) and the respective contractor(s), and test
and evaluation representatives. An IPT should be formed early in the life cycle of
a technology’s development to address key issues that can greatly affect life-cycle
cost and the eventual acceptance and implementation of the technology. Issues
that the IPT should address include defining and agreeing upon quantifiable
metrics, such as cost, performance, and schedule; exit criteria; and the maturity of
the technology at transition identified as technology readiness levels (TRLs) (the
various levels are described in Appendix B). The Guide states that those issues
and others should be agreed upon in formal documentation such as a
memorandum of agreement or understanding and technology transition plans.

       Manager’s Guide to Technology Transition in an Evolutionary
Acquisition Environment. In January 2003, the Under Secretary of Defense for
Acquisition, Technology, and Logistics reemphasized the guidance issued in the
Handbook and Guide was intended to be a source of information to promote
collaboration among team members. It provides an overview of the processes,
communities, programs, and challenges associated with technology transition.

        Under Secretary of Defense for Acquisition, Technology, and Logistics
Report to Congress. In June 2001, the Under Secretary of Defense for
Acquisition, Technology, and Logistics provided a Defense Advanced Research
Projects Agency report on technology transitioning to congressional defense
committees. The report provided Congress with the results of a review of the
transition of research to the Military Departments from the Defense Advanced
Research Projects Agency and addressed issues that were also applicable for the
Air Force transition of research technology to acquisition program managers and,
ultimately, to the warfighter. The report stated that a key reason for difficult
technology transition was the need for collaboration among three diverse groups:
the S&T researcher, the acquisition program manager, and the military user.
Effective transition requires the groups to work together as a team, which is
frequently a difficult issue. In addition, for a technology to transition
successfully, the acquisition program manager’s prime contractor must support
the technology insertion, and the technology must demonstrate a greater return
than the existing capability.

Air Force Process. In 1997, the Air Force Research Laboratory (AFRL) was
created through the consolidation of four former Air Force laboratories and the
Air Force Office of Scientific Research. The laboratory comprises
nine directorates, each with different technology disciplines, located throughout
the United States. In addition, the Air Force Office of Scientific Research
manages national and international basic research. The nine technology
directorates are responsible for exploratory technology development (applied




                                     2
    research) and advanced technology development research areas, as well as other
    research funded with non-AFRL funds. The subject of this audit was research
    projects funded with AFRL advanced technology development funds.

    The AFRL Science and Technology Mission Area Strategic Plan for FYs 2002
    through 2009 provide a roadmap for the future technologies. The objective of the
    S&T program is to provide the technical foundation for the Air Force. In
    addition, the AFRL Center Strategic Plan for FYs 2002 through 2009 established
    a core strategy objective to demonstrate and transition technology. To accomplish
    that objective, AFRL partnered with the Major Commands (MAJCOMs) to ensure
    that at least 50 percent of the AFRL advanced technology development funds are
    directed towards advanced technology demonstrations (ATDs) through FY 2009.
    Also, AFRL partners with the MAJCOMs and the Air Force Materiel Command
    product centers to ensure that 75 percent of the transition plans for ATDs are
    funded.

Objectives
    The audit objective was to determine whether the Air Force was successful in
    transitioning advanced technology projects to military applications. Specifically,
    we determined whether the Air Force had established a process to successfully
    transition technology. We also evaluated management controls at AFRL as they
    relate to the audit objective. See Appendix A for a discussion of the audit scope
    and methodology, the review of the management control program, and prior
    coverage related to the audit objectives.

    The audit examined 30 S&T projects (24 ATDs and 6 Critical Experiments (CEs))
    funded from the advanced technology development budget subcategory of the
    FY 2003 Air Force research, development, test, and evaluation appropriation.
    The 30 S&T projects were valued at $123 million. The 30 S&T projects had
    additional planned funding of $222 million from FY 2004 through FY 2007. The
    audit examined whether working-level IPTs were established, whether they
    included the planned recipients, whether charters were established for the IPTs,
    whether official memorandums of understanding or agreement or technology
    transition plans had been established, and whether agreements included TRLs and
    exit criteria. The audit did not review exploratory research (applied research) or
    AFRL projects conducted with non-AFRL funding.




                                         3
Air Force Science and Technology
Process
In 2001, the Commander of the Air Force Materiel Command and the
Principal Deputy Assistant Secretary of the Air Force (Acquisition and
Management) established interim guidance for the Applied Technology
Councils (ATCs) to facilitate the technology transition of advanced
technology demonstrations to the warfighter. Although the ATCs created
a General Officer and executive level of review for the ATDs and other
management oversight processes, improvements in coordination are still
needed in the AFRL at the acquisition program manager level.
Specifically, although 23 technologies did have working-level IPTs, other
critical elements for transitioning were missing:

   •   All but two working-level IPTs had not established charters to
       identify roles and responsibilities,

   •   Half of the ATDs had not established technology transition plans
       for emerging technologies,

   •   Most of the technologies did not have established agreements on
       TRLs and exit criteria with technology recipients,

   •   Twelve of the working-level IPTs did not document issues and
       action items to prevent development problems and provide
       accountability, and

   •   Eight of the 13 acquisition recipients for technologies scheduled to
       transition in FYs 2003 and 2004 did not identify funding.

In addition, the performance appraisal process for S&T officials needs
improvement to emphasize technology transitioning as a performance
element.

These conditions exist because Air Force S&T management had not fully
implemented the best practices advocated by the Deputy Under Secretary
of Defense for Science and Technology. The status of formal agreements
between the technology and recipient communities is not a subject at the
ATCs. The AFRL had not established a requirement for formal
coordination on critical experiment (non-ATD) research with the planned
technology recipient and also had not established minimum documentation
standards for technology development to include minutes of IPTs, record
of action items, and decisions. As a result, the AFRL planned technology
investments of $222 million for technologies included in this review had
not been fully coordinated with the transition recipient. In addition, the
Air Force technology recipients had a $529 million transition-funding
shortfall for all AFRL emerging technologies scheduled to transition from
FYs 2003 through 2005.



                             4
Air Force Advance Technology Program
    Air Force guidance for planning and managing S&T projects was created before
    the AFRL was established in 1997 and does not describe the current process used
    to plan and manage S&T efforts. Since 1997, the AFRL organizational structure
    and the Air Force S&T process have changed and, on June 13, 2003, the Secretary
    of the Air Force revised Air Force Policy Directive 61-1, Management of Science
    and Technology, which provides overarching S&T guidance to reflect those
    changes. The guidance updates the roles and responsibilities of all Air Force
    organizations directly involved in managing S&T. Three key components of the
    Air Force include the ATCs, baseline reviews, and the Acquisition Center of
    Excellence processes.

    Applied Technology Councils. In 2001, the Commander, Air Force Materiel
    Command and the Principal Deputy Assistant Secretary of the Air Force
    (Acquisition and Management) established interim guidance for the ATCs. The
    ATCs were designed to establish a closer link between the AFRL; product,
    logistical, and test centers of the Air Force Materiel Command; and the
    MAJCOMs. The Air Force Materiel Command product centers identify required
    transition funding, prepare technology transition schedules for acquisition
    programs receiving ATD technologies, and recommend candidate ATD priorities.

    The objective of the ATCs is to review and approve technology, and prioritize
    technology funding. The ATCs provide a senior-level forum to facilitate
    transition of technology from AFRL into advanced system developments and
    fielded system upgrades. In addition, the ATCs are to provide MAJCOM
    customer focus for development efforts in AFRL based on warfighter
    requirements to improve Air Force warfighting capabilities. The ATC process
    was established in November 1999.

    Each ATC semiannually reviews the status of existing approved ATDs, approves
    (commissions) advancing S&T efforts as ATDs, and offers guidance to AFRL on
    future candidate ATD programs. The ATC process classifies ATDs in the
    following categories:

       •   Category 1: MAJCOM supports and has programmed required funding
           for transitioning to an acquisition effort within the Future Years Defense
           Plan.

       •   Category 2A: MAJCOM supports and is committed to identifying
           transition funding in the next budgeting cycle.

       •   Category 2B: MAJCOM supports but is not currently able to budget for
           the transition.

       •   Category 3: Warfighter does not support and has no plan to use the
           technology.




                                        5
Baseline Reviews. In December 2001, the AFRL began baseline reviews as part
of an internal management control process. Baseline reviews are conducted on
ATDs and high visibility programs and establish agreements between AFRL
technology directorates and AFRL Command Section officials on the developing
technology. ATD baseline reviews are conducted semiannually to advise AFRL
executive officials on the progress of the technology development efforts.
Baseline reviews are intended to provide accountability on the cost, schedule,
program, and risk for developing technologies. Also, baseline reviews ensure that
resources remain committed to the research efforts, agreements with customers
are met, and problems are identified early.

Acquisition Center of Excellence. In June 2002, the AFRL established the
Acquisition Center of Excellence to increase the effectiveness of the AFRL
functions, processes, and efforts. The mission of the Acquisition Center of
Excellence program is to work in partnership with AFRL and customer
organizations to increase the speed at which required, capable, and affordable
technology transitions to the warfighter.

The initial goals of the Acquisition Center of Excellence are to improve the speed
and ease the delivery of new technology capabilities into Air Force weapon
systems, to define and implement a comprehensive framework for laboratory
technology transitions, and to investigate strategic collaboration initiatives with
industry. An Acquisition Center of Excellence vision includes the involvement of
the technology customers on S&T program IPTs in developing the requirements
and exit criteria and participating in key program decisions. The AFRL
Acquisition Center of Excellence also adopted the Transformational Management
for Accelerated Technology Transition process that applies systems engineering
principles across AFRL research programs.

As part of the Acquisition Center of Excellence program, the AFRL initiated a
management process called the Integrated Product and Process Development that
strives to provide a disciplined systems engineering approach to enhance
technology development and coordination. Integrated Product and Process
Development involves thinking ahead and balancing performance, producibility,
cost, schedule, and risk--all integral elements of the S&T effort.

Critical Experiments Guidance. CEs are advance technology development-
funded efforts that have not been submitted to the ATCs as ATD proposals. Air
Force guidance provides limited policy and procedures on managing CEs, even
though these experiments represent about $380 million or 53 percent of the AFRL
advanced technology development funding for FY 2003. Air Force
Instruction 61-105, “Planning for Science and Technology,” July 22, 1994,
requires that the MAJCOMs review advanced development efforts for relevancy
to future technology needs. The reviews include selected CEs and may prioritize
the selected CEs based on future technology needs. The ATC process reviews
only CEs that are candidates for ATDs.




                                     6
Technology Development Guidance
    The interim guidance issued by the Deputy Secretary of Defense states that S&T
    programs shall address user needs, maintain a broad-based program spanning all
    Defense-relevant sciences and technologies to anticipate future needs and those
    not being pursued by civil or commercial communities, preserve long-range
    research, and enable rapid successful transition from the S&T base to useful
    military products. The Handbook provides elements of best practices and
    procedures captured in the form of criteria for S&T managers. Those criteria
    were endorsed by the Deputy Under Secretary of Defense for Acquisition and
    Technology’s Affordability Task Force that was charted by the Director for
    Defense Research and Engineering to develop solutions on how to strengthen
    DoD S&T programs.

Air Force Science and Technology Products Reviewed
    The AFRL needs to strengthen its S&T coordination with program recipients.
    The Handbook and Guide recommend establishing memorandums of agreement
    or understanding with the acquisition program manager(s), including agreement
    on TRLs and exit criteria, to ensure that acquisition programs have the necessary
    funding for S&T integration. In addition, the AFRL should require S&T product
    managers to document IPT issues to prevent potential development problems
    resulting from key personnel changes.

    The audit examined 30 S&T projects (24 ATDs and 6 CEs) funded from the
    advanced technology development budget subcategory of the FY 2003 Air Force
    research, development, test, and evaluation appropriation. The 30 S&T projects
    were valued at $123 million. The 30 S&T projects had additional planned
    funding of $222 million from FY 2004 through FY 2007. Twenty-two of the
    24 ATDs (two completed ATDs transitioned to other ATDs) had 23 planned
    recipient acquisition programs and the 6 CEs had 6 planned recipients. The
    following table summarizes the audit results by ATD and CE, using the
    recommended best business practices in the Handbook and Guide.




                                        7
                         Table 1. Science and Technology Advanced Technology
                          Demonstrations and Critical Experiments Examined
                            (ratio shows positive responses to total examined)1

                                             Number of Occurrences           Percent of Occurrences2
                                              24 ATDs    6 CEs                  24 ATDs 6 CEs
            IPTs at the product level
             Team established                  19 of 22         4 of 6                  86         67
                                                            3           4
             Charter established                  1 of 19       1of 4                   5          25
             Acquisition program
              manager included                 19 of 205        4 of 4                  95        100

             Acquisition program
              prime contractor
              included                         18 of 193        3 of 33                 95        100

            Acquisition
            Program Manager
             MOA/MOU/TTP6                      11 of 22         1 of 6                  50         17
             Exit TRLs formally
              agreed                              7 of 235      0 of 6                  30          0
             Exit criteria formally
              agreed                           10 of 235        1 of 6                  43         17

            Funding for FYs 2003
            and 2004 transitions by
            the acquisition recipient             5 of 137      0 of 07                 38
            Note: Appendix C provides the supporting detail to the table by ATD and CE.



1
    Draft documents were not considered a positive response. Response deemed “not applicable” were not
    included in the base.
2
    The percentage of occurrences represent the results of projects examined and may not necessarily
     represent the results of all projects in the AFRL advanced technology demonstration funded universe.
3
    Nineteen of the 24 ATDs reviewed had working-level IPTs. The base for the CEs was reduced by 1
    because 1 project did not have an identified acquisition program contractor.
4
    Four of the six CEs had working-level IPTs.
5
    One technology had two identified users, therefore the base was increased by one.
6
    Memorandum of Agreement, Memorandum of Understanding, Technology Transition Plan.
7
    Twelve of the 24 ATDs had near-term transitions dates (One of the ATDs has two recipients, therefore the
     12 is 13) . AFRL does not require CEs to have a transition path and therefore the CEs do not have an
     established scheduled to transition.



                                                        8
Integrated Product Teams
    The Deputy Secretary of Defense issued interim acquisition guidance on
    October 30, 2002, which states that IPTs will be used and that they will include
    warfighters, users, developers, acquirers, technology experts, industry, testers,
    budgeting officials, and system maintainers. In addition, the Handbook and
    Guide cite best business practices, including establishment of working-level IPTs
    and IPT charters. To be effective, IPTs must include the acquisition program
    manager(s) and have an established charter. The prime contractor should also be
    considered for IPT participation, if appropriate, to facilitate the technology
    integration.

    Integrated Product Teams Established. The Handbook and Guide
    recommended the establishment of IPTs at the working level for all the S&T
    efforts and ATDs. AFRL officials established working-level IPTs for 19 of the
    22 ATDs and 4 of the 6 CEs. Nineteen of the 20 planned technology recipients
    were participating in the 19 working-level IPTs to some degree (1 technology had
    2 planned recipients). Four of the six CEs had established a working-level IPT
    and all four CEs had participation by the planned recipient.

    Integrated Product Team Charters. The Handbook recommends the
    establishment of IPT charters. The Handbook states that IPT charters provide the
    best way to minimize team misunderstanding. The Handbook provides that each
    charter should include:

       •   The mission and objectives of the team,

       •   The metrics to evaluate the team’s progress,

       •   The scope of the team’s responsibility,

       •   The relationship of the team with other teams,

       •   The authority and accountability of the team,

       •   The resources available for the team, and

       •   A team membership list.

    Only 1 of the 19 ATDs and 1 of the 4 CEs had established some form of a charter
    for their IPTs. The AFRL process does not require the establishment of a charter,
    and AFRL officials stated that other required research supporting documentation
    for baseline and ATC reviews capture many of the elements that IPT charters
    would contain. However, our review identified a general lack of IPT
    documentation of meeting results, action items, and issues needing continued
    examination, posing a risk in orderly continuation of S&T efforts. This risk is
    avoidable by requiring the documentation of significant program decisions and
    development issues and providing for accountability. The AFRL does not require
    the establishment of IPT charters to document the roles and responsibilities of


                                        9
    AFRL or acquisition officials or require the establishment of a means to control
    and track issues, decisions, assignments, or action items resulting from IPT
    meetings. The lack of documentation also inhibits accountability.

    Acquisition Program Prime Contractor. One goal of the Air Force S&T
    program is to transition technology to an acquisition program and, subsequently,
    to the warfighter. The Guide and Handbook recommend that the technology
    receiver’s prime contractor participate in the IPT to facilitate the integration of the
    evolving technology into the receiving platform. Of the 19 ATDs that established
    IPTs, 18 planned recipients had prime contractors participating.

    Of the four CEs that established IPTs, three recipient programs had prime
    contractors participating in the working-level IPT. The remaining CE technology
    recipient had not identified a prime contractor. Air Force had no official S&T
    guidance on prime contractor representation in IPTs for ATD or CE efforts.

Role of Acquisition Program Managers
    To improve the likelihood of technology transition, acquisition program managers
    must make a firm commitment to transition the technology to their programs. The
    commitment should include a formal and up-to-date memorandum of agreement,
    understanding, or technology transition plan (TTP) between the S&T product
    manager and the acquisition program manager(s). Each memorandum should
    specify the relationships and responsibilities of the S&T product manager and the
    receiving acquisition program manager(s). The agreement should address system
    requirements, funding, personnel support, exit criteria, and TRLs. Within the
    AFRL, TTPs represent and function as the memorandum of agreement or
    understanding. TTPs represent agreement between the S&T and planned
    recipient communities on TRLs and exit criteria. Our review showed that TTPs
    do not always include agreement on TRLs and exit criteria. The AFRL draft
    guidance requires the establishment of TTPs that include agreement on TRLs and
    exit criteria. The establishment of TTPs that include TRLs and exit criteria is one
    of the subjects presented at the baseline reviews.

    Technology Transition Plans. Air Force Materiel Command Instruction 61-102,
    “Technology Transition Planning,” March 13, 1995, requires the development of
    TTPs. The instruction applies only to ATDs and states that TTPs will represent
    agreement between the AFRL and the receiving acquisition program manager(s)
    on the development of the technology for transitioning and the exit criteria.
    Eleven of the 22 ATDs had established TTPs. Of those 11 TTPs, 6 were current,
    3 were being revised, and 2 had not been updated within the last 3 years (1 was
    7 years old).

    The six CEs had six planned recipients. Only one recipient had established a TTP
    and that TTP was 4 years old. AFRL does not require the establishment of TTPs
    for CEs. Although CEs are related to early stages of advanced technology
    development, the establishment of the substance of a TTP should be a
    requirement to ensure that the potential planned recipient is aware of the



                                          10
    technology effort and that some form of coordination and agreement on the
    technology’s development, requirements, and exit criteria are established for a
    baseline for technology development.

    Technology Readiness Levels. DoD adopted TRLs in response to a General
    Accounting Office Report, “Best Practices: Better Management of Technology
    Development Can Improve Weapon System Outcomes,” issued in July 1999. A
    TRL is an assessment of the technical maturity of an S&T effort. In July 2001,
    the Deputy Under Secretary of Defense for Science and Technology issued a
    memorandum to the Military Departments and Defense agencies that emphasized
    the development of TRLs. The TRLs range from one through nine, with more
    mature S&T efforts having a higher TRL and a lower risk for the acquisition
    program. Only 7 of 23 recipients had agreed to TRLs. None of the six CEs had
    agreements on TRLs.
    Exit Criteria. The exit criteria for each S&T effort describe the current
    capabilities, the expected performance parameters and conditions of
    measurement, the range of acceptable performance improvements, and the test
    conditions and verification methods for measuring performance. The S&T
    manager and the acquisition program managers, in collaboration with the IPT,
    develop exit criteria that are appropriate for transitioning the technology. The
    22 ATDs had 23 technology recipients. Agreements on exit criteria were
    established for 10 of these 23 recipients. Of the six CEs, only one recipient had
    agreed to exit criteria.

Acquisition Program Funding
    The DoD research, development, test, and evaluation budget is divided into
    seven budget activities. The S&T community receives funding from the first
    three budget activities only: basic research, applied research, and advanced
    technology development. The acquisition community is funded with three budget
    activities: demonstration and validation, engineering and manufacturing
    development, and operational systems development. A seventh budget activity,
    management support, is directed toward installations or operations required for
    general research and development use. This separation of research, development,
    test, and evaluation funding between the S&T and acquisition communities and
    the shrinking of the research, development, testing, and evaluation budget make
    coordination between the S&T program managers and acquisition program
    managers very critical.

    Within the Air Force, the operational MAJCOMs prioritize the activity funds
    budgeted for the acquisition community. In this prioritization process, the
    MAJCOMs determine the funds planned for the technology transition from the
    S&T community to the acquisition community. As part of the review, we
    examined the transitioning fund requirements for the technologies reviewed in the
    audit and for the 47 technologies scheduled to transition between FYs 2003 and
    2005 that are under development at AFRL. The review found significant
    technology transitioning funding shortfalls.



                                        11
Funding for ATDs Reviewed. The MAJCOMs and acquisition program
managers were not providing the funding required for technology transitioning.
Twelve of the 22 ATDs were scheduled to transition to acquisition program
managers in FYs 2003 or FY 2004. These 12 ATDs had 13 acquisition recipients.
Of these 13, only 5 acquisition programs had identifiable funds for the
transitioning technologies. Acquisition programs should be required to
specifically identify funds, particularly for near-term transitions, to ensure that
funds are available as a requirement for continued research expenditure by AFRL.
Without adequate funding for technology transition, AFRL will not be able to
determine whether continued investment in ATDs is beneficial or whether limited
research funds of AFRL should be directed to other promising technology
transition candidates.

Funding Requirements for All Near-Term Transitions. The AFRL plans to
have 47 of the 62 ATDs ready for transitioning between FYs 2003 and 2005. The
MAJCOMs identified a transition funding requirement of $2,406.8 million for
45 of 47 ATDs; however, only $1,877.4 million has been budgeted for FYs 2003
through 2007, resulting in a research, development, test, and evaluation shortfall
of $529.4 million for FYs 2003 through 2007, if the technology development is
successful. The MAJCOMS had not identified the funding requirements for the
remaining two ATDs and only partially identified the funding requirements for 5
of the ATDs in Table 2. Table 2 shows the FYs 2003 through 2007 funding
required, budgeted, and shortfalls for ATDs that are planned to become available
in FYs 2003 through 2005.

                Table 2. Summary of Near-Term ATD Categories
                         By Technology Availability Year
                             (Dollars are in millions)

     Fiscal Year of       Number [--------------FYs 2003 - 2007---------------]
      Technology            of    Funding        Funding
      Availability         ATDs Required Budgeted                  Shortfall

         2003                20   $1508.3        $1376.0           $132.3
         2004                11     498.8          239.0            259.8
         2005                14     399.7          262.4            137.3


        Total                45 $2,406.8        $1,877.4           $529.4

Table 2 does not include transition funding that is embedded in the acquisition,
such as preplanned product improvements.

In addition to the above, the Air Force also used Warfighter Rapid Acquisition
Process (known as WRAP) funds to transition S&T efforts. Warfighter Rapid
Acquisition Process funds were used to transition two ATDs in FYs 2002 and
2003. The Air Force had not budgeted for Warfighter Rapid Acquisition Process
funds in the President’s Budget for FY 2004 and subsequent years; therefore, this
source of transition funds will not be available.



                                    12
Personnel Performance Assessments
    The AFRL established a performance element in the S&T Statements of Duties
    and Experience that addresses technology transitioning. The S&T duties state that
    the S&T official will seek opportunities for technology transitioning, lead or serve
    as a key technology member of teams for transitioning, and organize and market
    overall technology transitions at senior management levels. However, the S&T
    duties do not specifically include the requirements identified in the Handbook and
    Guide. For example, the AFRL S&T duties do not require the need for each S&T
    advanced technology development-funded effort to establish working-level IPTs
    with all planned recipients, to create IPT charters, to coordinate and agree upon
    quantitative metrics and key exit criteria with all planned recipients, to develop
    TTPs, and to develop and maintain up-to-date memorandums of agreement or
    understanding. The inclusion of these requirements in S&T duties would be a
    better measure of S&T personnel performance and would enhance the likelihood
    of technology transition.

Recommendations, Management Comments, and Audit
  Response
    We recommend that the Commander, Air Force Research Laboratory:

           1. Require the establishment of integrated product teams and
    charters for all advanced technology development efforts to include
    representatives from the Air Force Major Commands, the candidate
    acquisition program office(s), and the acquisition program office prime
    contractor(s), where applicable.

    Management Comments. The Assistant Secretary of the Air Force (Acquisition)
    nonconcurred with the recommendation. The Assistant Secretary stated that
    integrated product teams (IPTs) and charters should not be required for all
    advanced technology development and that if the requirement was limited to
    advanced technology demonstration (ATD) programs, the Air Force would
    concur. He stated that non-advanced technology demonstration programs (known
    as Critical Experiments (CEs)) are not sufficiently technically mature for an
    objective evaluation by the potential receiver of the technology and that such a
    review would require a massive amount of resources because there are
    approximately 300 CEs compared to approximately 60 ATDs. The Assistant
    Secretary stated that IPTs are appropriate for ATDs and encourages IPTs for CEs;
    however, he believes that requiring IPTs for CEs would increase the AFRL
    workload five-fold.

    The Assistant Secretary stated that AFRL had established a format for IPT
    charters.

    Audit Response. The Assistant Secretary’s comments are not fully responsive to
    the recommendation. The Assistant Secretary stated that he would concur with


                                        13
this recommendation if it applied only to ATD programs because CEs are not
sufficiently technically mature. We do not agree with the Air Force in making a
distinction between ATDs and CEs because CEs are S&T projects that also use
advanced technology development funds under the research, development, test,
and evaluation appropriation, and, as such, should be held to a similar level of
development coordination as ATDs. The DoD Financial Management
Regulation, June 2002, defines advanced technology development under the
research, development, test and evaluation appropriation as efforts that are proof
of technological feasibility and assessment that have a direct relevance to
identified military needs. CEs comprise 53 percent ($380 million) of the Air
Force’s advanced technology development budget for FY 2003 and should have
specific, measurable, major technological advancements to be achieved. Projects
under this category should be directly related to identified military needs, and
should demonstrate their general military use. As such, early coordination with
the potential recipient is necessary to ensure their military relevance and to
enhance the transition of the CE technology.

Early coordination with potential recipients is emphasized not only in the
Handbook and Guide, but also in the Defense Systems Management College
training course, “Program Management for S&T Manager,” STM 301, formally
known as “Technology Insertion in Defense Systems Acquisitions.” The
Handbook, Guide, and the training course do not provide lesser coordination for
any S&T effort that is funded by advanced technology development
appropriations. With the emphasis on transitioning technology from the S&T to
the potential recipient, we believe that the recommendation remains appropriate
and has merit.

In preparing this report, we reviewed the AFRL ATD database and found two
files that contained listings of CEs. The first file identified 107 CEs. Further
examination of this CE file showed that 29 of the 107 CEs had the technology
available in FY 2003 or before. Of the remaining 78 CEs, 27 were to have
technology available during FYs 2004 or 2005: Accordingly, in the near-term, at
least 27 CEs should be coordinated through IPTs with the planned technology
receiver.

The second file provides another listing of 250 CEs by fiscal year, of which 129
were funded in FY 2003 and subsequent years, while another 25 were to begin
funding in FY 2004. The remaining 96 CEs were either completed prior to FY
2003 or had no funding in FYs 2003 and 2004. This listing provides a funding
profile for CEs only, and does not have a technology description.

We request the Assistant Secretary to reconsider his position and provide
additional comments to the final report.

         2. Establish procedures that require the status of technology
transition plans between the science and technology manager, the Air Force
Major Commands, and the candidate acquisition program offices be a
subject of review at the Applied Technology Councils.




                                    14
Management Comments. The Assistant Secretary concurred and stated that the
AFRL established procedures, on June 23, 2003, requiring the Applied
Technology Councils to review the status of technology transition plans. The
procedures will be formalized in an Air Force instruction by March 2004.

       3. Review the technology paths or plans for the eight unfunded
science and technology efforts that are scheduled to transition in FYs 2003
and 2004, and discontinue development for those that do not have formal
acquisition program support with identified funding.

Management Comments. The Assistant Secretary nonconcurred with the
recommendation, citing that the ATC process was established with different
technology categories to allow both technology push and pull. The technology
balance of push and pull is required to maintain technological superiority. He
said that eliminating developing technologies that do not have identifiable
transition funding virtually eliminates the Air Force from maintaining and
advancing a broad range of warfighting capabilities. The Assistant Secretary
stated that certain technologies are developed but may not transition immediately,
and that discontinuing the efforts would place the Air Force at risk. The Assistant
Secretary stated that there have been many requests for immediate or timely
technology capabilities where AFRL was able to provide previously developed
solutions.

The Assistant Secretary provided the status of seven of the eight technologies
included in the recommendation. The Assistant Secretary stated that the
technology transition will be budgeted in FY 2006; the technology transitioned to
another development effort; additional desired capabilities delayed the transition
but the transition plan is in the approval stage; technology was complete but not
funded for transition; technology is complete and unplanned Defense Emergency
Response Funds were used to transition the technology; near-term transition
remains unfunded but Warfighter Rapid Acquisition Program funds were being
sought; and further development was needed before the planned receiver will seek
transition funds. The eighth technology pertained to the Targets Under Trees,
scheduled to transition to the Electronic Systems Center for which no comments
were provided.

Audit Response. The Assistant Secretary’s comments are nonresponsive. The
intent of the recommendation was to address transitions that were scheduled for
FYs 2003 and 2004. The Air Force needs to consider whether continued
expenditure of ATD funds on technologies scheduled for near-term transition to
acquisition programs is prudent if the necessary funds to continue the required
development are not available. Although AFRL has no authority to compel
program managers to identify transition funding, they do have the responsibility
to review technology paths and plans for technology products to ensure viability,
to identify whether the necessary transition funds are available, and to determine
whether continued expenditure of ATD funds is appropriate when technology
transitioning is questionable. One of the objectives of the ATC process was to
ensure receiver funding sponsorship for transitioning. With limited S&T financial
resources, it is prudent to align S&T efforts to technologies that are more likely to
result in successful transitions.


                                     15
The recommendation focused on developing technologies that were scheduled for
transition in FYs 2003 and 2004. The key to transitioning technology is the
availability of sufficient funds to mature the technology through later TRLs.
Funds to mature and test the S&T efforts are needed; however, the budget cycle
requires as much as 2 years of planning before funds are available. Therefore,
AFRL and the planned receiver must agree early and prevent funding lapses
during development. As indicated in the Assistant Secretary comments, at least
half of those technologies remain unfunded or were provided to the warfighter
only through unplanned emergency funding. Although the recommendation
addressed only eight near-term technology transitions, the audit report identified
that the AFRL is developing technologies that have a transitioning funding
shortfall of at least $529 million if the technologies advance as planned. Many of
those emerging technologies will fall into a waiting period where the technology
is ready for transition but the planned recipient is unable to receive it because the
recipient lacks transition funding. That waiting period could range from 2 years
to a much longer period, depending upon the planned receiver’s competing
funding priorities.

We request the Assistant Secretary to reconsider his position and provide
additional comments to the final report.

        4. Issue guidance on critical experiments that require the
establishment of memorandums of agreement or understanding, or
technology transition plans, and the initial development of technology
readiness levels and exit criteria.

Management Comments. The Assistant Secretary nonconcurred because the
recommendation would “require” formal coordination with planned recipients.
The Assistant Secretary stated that if the recommendation was reworded to
“consider” the Air Force would concur. The Assistant Secretary also stated that
AFRL is preparing an instruction for CEs that include most, if not all, of the
recommendations as options and that establishing MOAs, MOUs, or TTPs as
appropriate could be useful.

Audit Response. The Assistant Secretary’s comments are nonresponsive to the
recommendation. Critical experiments and ATDs are funded with advanced
technology development funds under the research, development, test, and
evaluation appropriation and comprise 53 percent ($380 million) of the Air
Force’s budget for FY 2003. The Handbook and Guide emphasize that successful
transitions require commitment from all parties. Coordination and commitment
are also stressed in the Defense Systems Management College training course,
“Program Management for S&T Manager,” STM 301. We believe that continued
expenditure of large amounts of funds on CE technologies that do not have
coordinated paths or plans for transitioning to acquisition programs ignores
lessons learned and training on successful S&T transitioning. Successful
transitioning requires coordination and funding considerations through formal
agreements with planned technology recipients. The Assistant Secretary’s
comments do not address the intent of the recommendation because S&T
managers were always encouraged to develop MOAs or MOUs, TTPs, TRLs, and
exit criteria. Table 1 of this report shows that, despite the encouragement, only


                                     16
one of the six CEs had established basic coordination agreements. Therefore, we
still believe that advisory guidance is ineffective and the requirement to establish
these agreements will enhance the likelihood of technology transitions as well as
meet an identified military need. We request the Assistant Secretary to reconsider
his position and provide additional comments to the final report.

      5. Develop a process to coordinate critical experiment efforts with the
Air Force Major Commands. This process should require the Air Force
Major Commands’ prioritization of and comments on applicable critical
experiments for consideration by the Air Force Research Laboratory in
determining whether to continue development.

Management Comments. The Assistant Secretary nonconcurred because the
recommendation “required” coordination with planned recipients for CEs. The
Assistant Secretary stated that coordination with planned recipients would be too
manpower intensive and would be of marginal value in making investment
decisions. The Assistant Secretary stated that information on CEs is available on
the ATD database to which many Major Commands have access and that the
AFRL portfolio is discussed during the Capabilities Requirements Review and
Assessment process.

Audit Response. The Assistant Secretary’s comments are nonresponsive. The
Assistant Secretary believes there should be less coordination for CEs than for
ATDs even though CEs compose 53 percent of the AFRL advanced technology
development budget. The Office of the Under Secretary of Defense for
Acquisition, Technology and Logistics issued the “Manager’s Guide to
Technology Transition in an Evolutionary Acquisition Environment,” January 31,
2003. The Manager’s Guide states that technology projects should be prioritized
according to the warfighters’ projected needs and reviewed by them periodically.
S&T leaders, warfighters, and the acquisition or sustainment program manager
should do the review annually, and projects should be funded according to the
priorities established. As a means of encouraging new ideas, all programs should
be evaluated for relevance and productivity. One way of encouraging ideas is to
eliminate the least productive projects annually, which will keep the technology
more current. The collaboration and coordination from early interaction and
exchange between the technology and planned receiver communities permit
experimenting with technology-driven operational issues and the early weeding
out of unattainable technologies resulting in more focused requirements and
capabilities.

        Air Combat Command Prioritization. In August 2001, the Director of
Requirements at Air Combat Command prioritized AFRL CEs to provide
feedback on technology programs that were important to his command. The
command’s review and prioritization were the result of an action item at an
Applied Technology Council meeting. In providing the prioritization to AFRL,
the Director of Requirements stated that the AFRL should continue to work
together with the command to ensure a common understanding of CE priorities.
During that review, Air Combat Command personnel reviewed and ranked
121 CEs and did not comment on other CEs outside of the Command’s interest.
The Air Combat Command’s request for review of CEs illustrates the importance


                                     17
that one major command places on the review of emerging technologies and its
attempt to influence AFRL investment decisions.

        AFRL Database. Although the AFRL database has information on the
CEs that could be used to identify the nature of the research, the database does not
provide for prioritization and comment.

         AFRL Portfolio. The Assistant Secretary stated that the AFRL portfolio
is discussed during the Capabilities Requirements Review and Assessment
process. The Capabilities Requirements Review and Assessment process
examines capabilities in Global Strike, Homeland Security, Global Response,
Global Mobility, Air and Space/Command, Control, Intelligence, Surveillance,
and Reconnaissance. This process has recently been initiated and still is in
development. It is unclear how this top-level review process will focus on
individual CEs and prioritize them in relation to the overall concept of operations.

We continue to believe that the review and prioritization of CEs by planned
recipients would provide valuable insight to AFRL in directing its efforts towards
satisfying identified military needs. With planned-recipient endorsement of
emerging CEs, the recipient can ensure that CE efforts are directly related to an
identified military need and will more likely transition to the warfighter.
Therefore, we request the Assistant Secretary to reconsider his position and
provide additional comments to the final report.

        6. Modify the Statements of Duties and Experience for science and
technology personnel to emphasize the need for coordination with planned
recipients. The Statements of Duties and Experience should specifically
include the requirement for all advanced technology demonstration-funded
efforts to establish working-level integrated product teams with all planned
recipients, to create integrated product team charters, to coordinate and
agree upon quantitative metrics and key exit criteria with all planned
recipients, and to develop and maintain up-to-date memorandums of
agreement or understanding, or technology transition plans.

Management Comments. The Assistant Secretary nonconcurred. He stated that
S&T personnel work on a variety of projects in basic, applied research, and
advanced technology development and that it is not appropriate to single out
ATD-related work in the Statements of Duties and Experiences.

Audit Response. The Assistant Secretary’s comments are nonresponsive and
inconsistent with the guidance issued by OSD and comments provided by the
Army and the Navy on a similar recommendation. As described in the
Background section of this report, the DoD S&T Affordability Task Force issued
a Handbook that stresses the importance of coordination between the research and
technology recipient communities. The Handbook also states that one of the keys
to successful transitioning is implementing an S&T personnel assessment process
that is based on transitioning and affordability, in addition to individual technical
achievements and publishing technical papers. Accelerating the flow of
technology to the warfighter is one of the top priorities of the Under Secretary of
Defense for Acquisition, Technology and Logistics. Linking technology


                                     18
transitioning to S&T managers’ performance would reinforce the DoD priority of
enhancing the likelihood of providing advanced technologies to the warfighter.

We made a similar recommendation to the Army and Navy S&T officials in their
respective technology transitioning reviews, and the Army and Navy officials
concurred with the recommendation. Army and Navy S&T officials also manage
basic and applied research efforts as well as advanced technology development.
We request the Assistant Secretary to reconsider his position and provide
additional management comments to the final report.




                                  19
Appendix A. Scope and Methodology
   Work Performed. We examined 30 S&T technologies at the AFRL, with
   FY 2003 funding of $123 million, to evaluate the management process for
   transitioning successful technologies to the warfighter. The S&T technologies
   examined were funded with the advanced technology development budget activity
   within the Air Force research, development, test and evaluation appropriation.
   The 30 projects were judgmentally selected, were currently funded, were planned
   near term transitions, were high dollar value budgeted projects, and were from
   6 of the 8 AFRL Directorates that conduct ATD research projects. The FY 2003
   Appropriation Bill provided about $718 million in Air Force advanced technology
   development funding. The FY 2003 budget provided funding for 62 ATDs,
   129 CEs, and additional congressional interest items valued at $170 million.

   We conducted interviews with S&T and acquisition program officials, and
   examined applicable key documentation. Key documentation included guidance
   advocated by the Deputy Under Secretary of Defense for Science and
   Technology; technology transition plans; working-level IPT meeting minutes
   where available; memorandums of understanding and agreement; acquisition
   program funding profiles; S&T management plans; technology transition paths or
   plans; and the research, development, test, and evaluation budget item
   justification sheet (R-2 Exhibit).

   We performed this audit from September 2002 through August 2003 in
   accordance with generally accepted government auditing standards. We did not
   evaluate the technical merits of the S&T products. We limited the AFRL
   management control review to the S&T management procedures and the
   departments responsible for transitioning technology from the S&T community to
   the acquisition program managers or another technology area.

   Use of Computer-Processed Data. We relied on computer-processed data
   without performing tests of general and application system controls to confirm the
   reliability of the data. We relied on the Department of the Air Force Research
   Laboratory Advanced Technology Demonstration (ATD) database,
   https://techsql.afrl.af.mil/atd/default.asp and a computerized listing of ATDs and
   CEs to represent the known universe of S&T products in the review of the
   management process. We validated the total funding for FY 2003 on the
   computerized listing to the total funding under the advanced technology
   development budget activity within the Air Force research, development, test, and
   evaluation appropriation. Validating the computerized listing to the
   appropriations was appropriate for this audit because the audit’s objective was to
   examine the overall management process for technology transitioning, not the
   individual S&T products. Further validation of the computerized listing would
   not change the conclusions in this report.

   General Accounting Office High-Risk Area. The General Accounting Office
   has identified several high-risk areas in the DoD. This report provides coverage
   of the Weapon System Acquisition high-risk area.


                                       20
Management Control Program Review
      DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
      and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
      August 28, 1996, require DoD organizations to implement a comprehensive
      system of management controls that provides reasonable assurance that programs
      are operating as intended and to evaluate the adequacy of the controls.

      Scope of the Review of the Management Control Program. We reviewed the
      adequacy of AFRL management controls over technology transition. Specifically
      we reviewed AFRL management controls over the transition of science and
      technology projects funded with research, development, test, and evaluation
      funds; advanced technology development appropriations. Because we did not
      identify a material control weakness, we did not assess management’s self-
      evaluation because adequate management processes such as the ATC and baseline
      reviews provide a mechanism for management controls. .

      Adequacy of Management Controls. The audit identified that the Air Force had
      established adequate controls over technology transition that included a high-level
      management oversight process to approve and review proposed and ongoing
      technologies.

Prior Coverage
      During the last 5 years, the GAO has issued one report and the Inspector General of
      the Department of Defense (IG DoD) has issued three reports discussing the benefits
      of adequately managing the challenges of transitioning technologies to warfighters.

GAO
      Report No. NSIAD-99-162, “Best Practices: Better Management of Technology
      Development Can Improve Weapon System Outcomes,” July 30, 1999

IG DoD
      IG DoD Report No. D-2003-053, “Navy Transition of Advanced Technology
      Programs to Military Applications,” February 4, 2003

      IG DoD Report No. D-2002-146, “The Defense Advanced Research Projects
      Agency’s Transition of Advanced Information Technology Programs,”
      September 11, 2002

      IG DoD Report No. D-2002-107, “Army Transition of Advanced Technology
      Programs to Military Applications,” June 14, 2002




                                          21
Appendix B. Technology Readiness Levels and
            Their Definitions
The Deputy Secretary of Defense issued interim acquisition guidance on October 30,
2002. The interim guidance provided a matrix that lists technology readiness levels and
descriptions from a systems approach for both hardware and software as shown below.

 Technology Readiness Level                                          Description
1. Basic principles observed and          Lowest level of technology readiness. Scientific research begins to
reported.                                 be translated into applied research and development. Examples
                                          might include paper studies of a technology’s basic properties.
2. Technology concept and/or              Invention begins. Once basic principles are observed, practical
application formulated.                   applications can be invented. The applications are speculative and
                                          there may be no proof or detailed analysis to support the
                                          assumptions. Examples are limited to analytic paper studies.
3. Analytical and experimental            Active research and development is initiated. This includes
critical function and/or characteristic   analytical studies and laboratory studies to physically validate
proof of concept.                         analytical predictions of separate elements of the technology.
                                          Examples include components that are not yet integrated or
                                          representative.
4. Component and/or breadboard            Basic technological components are integrated to establish that they
validation in laboratory                  will work together. This is relatively “low fidelity” compared to the
environment.                              eventual system. Examples include integration of “ad hoc”
                                          hardware in a laboratory.
5. Component and/or breadboard            Fidelity of breadboard technology increases significantly. The
validation in relevant environment.       basic technological components are integrated with reasonably
                                          realistic supporting elements so it can be tested in simulated
                                          environment. Examples include “high fidelity” laboratory
                                          integration of components.
6. System/subsystem model or              Representative model or prototype system, which is well beyond
prototype demonstration in a              that of TRL 5, is tested in a relevant environment. Represents a
relevant environment.                     major step up in a technology’s demonstrated readiness. Examples
                                          include testing a prototype in a high fidelity laboratory environment
                                          or in a simulated operational environment.
7. System prototype demonstration         Prototype near, or at, planned operational system. Represents a
in an operational environment.            major step up from TRL 6, requiring the demonstration of an actual
                                          system prototype in an operational environment such as an aircraft,
                                          vehicle, or space. Examples include testing the prototype in a test
                                          bed aircraft.
8. Actual system completed and            Technology has been proven to work in its final form and under
qualified through test and                expected conditions. In almost all cases, this TRL represents the
demonstration.                            end of true system development. Examples include developmental
                                          test and evaluation of the system in its intended weapon system to
                                          determine if it meets design specifications.
9. Actual system proven through           Actual application of the technology in its final form and under
successful mission operations.            mission conditions, such as those encountered in operational test
                                          and evaluation. Examples include using the system under
                                          operational mission conditions.




                                                       22
                                                                                                                                        Appendix C. Summary of Advanced Technology
                                                       Advanced Technology Demonstrations
                                                                                                                          Acquisition
                                                 MOA/                                  IPT2      Funding                    User
                                                 MOU/                       IPT2     Includes      By       Acquisition    Agreed
                             Receiving           TTP1                     Includes  Acquisition Acquisition    User           to
                             Acquisition         With Established
                                                               2
                                                                   IPT2 Acquisition   Prime      User to 3    Agreed4        Exit
          System              Program            User  an IPT     Charter   User    Contractor Transition    to TRL        Criteria


     Advanced          311th Human Systems        Yes        Yes      No       Yes          Yes    Yes (Cat 1)     No        Yes
     Laser Eye         Wing (311 HSW)                                                               (FY03)




                                                                                                                                                    Development Projects Reviewed
     Protection
     (ALEP)
     Cognitive         Electronic Systems         n/a9       n/a9     n/a9     n/a9         n/a9       n/a9        n/a9      n/a9
     Desktop           Center (ESC)
     Information
     Manager
     (CDIM)
     Common            Aeronautical Systems       No         Yes      No       Yes          Yes    n/a10 (Cat 1)   No         No
     Situation         Center (ASC)
     Awareness
23




     (CSA)
     Day/Night         Aeronautical Systems       No         No       n/a6     n/a6         n/a6      n/a10        No         No
     EO/IR Threat      Center (ASC)                                                                 (Cat 2A)
     Tracker
     Countermeasure
     Distributed       Electronic Systems         n/a9       n/a9     n/a9     n/a9         n/a9       n/a9        n/a9      n/a9
     Analysis          Center (ESC)
     Decision
     Support
     System
     (DADSS)
     Effects Based     Electronic Systems        Draft5      Yes      No       Yes          Yes    No (Cat 2A)     No         No
     Operations        Center (ESC)                                                                 (FY 04)
     (EBO)




     Note: See footnotes at the end of the appendix.
                                                       Advanced Technology Demonstrations (cont’d)
                                                                                                                                      Acquisition
                                                       MOA/                                      IPT2        Funding                    User
                                                       MOU/1
                                                                                  IPT2         Includes         By      Acquisition    Agreed
                                    Receiving          TTP                      Includes      Acquisition   Acquisition    User           to
                                    Acquisition        With Established
                                                                     2
                                                                         IPT2 Acquisition       Prime        User to 3    Agreed4        Exit
              System                 Program           User  an IPT     Charter   User        Contractor    Transition   to TRL        Criteria


     Enhanced Rotor Life       Oklahoma City Air        Yes      Yes       No        Yes         Yes        n/a10 (Cat 1)   No            No
     Extension (ERLE)          Logistics Center
     Spiral I                  (OC-ALC)

     Expeditionary Air         Warner Robbins Air      Draft5     No       n/a6      n/a6        n/a6           n/a7        No            No
     Ground Equipment          Logistics Center
     (EAGE)                    (WR-ALC)

     F35 F136                  Aeronautical            Draft5    Yes       No        Yes         Yes            n/a10       No            No
24




                               Systems Center
                               (ASC)

     Foliage Penetration       Aeronautical            Draft5    Yes       Yes       Yes         Yes        No (Cat 2B)     No            No
     Synthetic Aperture        Systems Center                                                                 (FY03)
     Radar (FOPEN)             (ASC)

     Future Air Navigation     Electronic Systems       No        No       n/a6      n/a6        n/a6           n/a7        No            No
     and Traffic Avoidance     Center (ESC)
     Solution Through
     Integrated
     Communication,
     Navigation &
     Surveillance (CNS)
     (FANTASTIC)




     Note: See footnotes at the end of the appendix.
                                                         Advanced Technology Demonstrations (cont’d)
                                                                                                                                     Acquisition
                                                         MOA/                          2
                                                                                               IPT2         Funding                    User
                                                         MOU/                       IPT      Includes          By      Acquisition    Agreed
                                    Receiving            TTP1                     Includes Acquisition     Acquisition    User           to
                                    Acquisition          With Established
                                                                       2
                                                                           IPT2 Acquisition   Prime         User to 3    Agreed4        Exit
              System                 Program             User  an IPT     Charter   User    Contractor     Transition   to TRL        Criteria


     Fuze Air-to-Surface       Air Armaments              Yes       Yes       No       Yes         Yes    n/a10 (Cat 2B)   Yes          Yes
     Technology (FAST)         Center (AAC)


     Global Air Mobility       Air Mobility              Draft5     Yes       No       Yes         n/a8   No (Cat 2A)      No            No
     Advanced Technologies     Command (AMC)                                                                (FY03)
     (GAMAT)

     Information for Global    Electronic Systems        Draft5     Yes       No       Yes         Yes    n/a10 (Cat 2B)   No            No
25




     Reach (IFGR)              Center (ESC)


     Integrated Flight         Electronic Systems        Draft5     Yes       No       Yes         Yes     Yes (Cat 1)     No            No
     Management (IFM)          Center (ESC)                                                                 (FY03)


     Integrated Panoramic      Aeronautical               Yes       Yes       No       Yes         Yes     Yes (Cat 1)     Yes          Yes
     Night Vision Goggles      Systems Center                                                               (FY03)
     (IPNVG)                   (ASC)

     Laser Infrared Flyout     Aeronautical               Yes       Yes       No       Yes         Yes     Yes (Cat 1)     No            yes
     Experiment (LIFE)         Systems Center                                                               (FY04)
                               (ASC)



       Note: See footnotes at the end of the appendix.
                                                       Advanced Technology Demonstrations (cont’d)
                                                                                                                                  Acquisition
                                                       MOA/                          2
                                                                                             IPT2        Funding                    User
                                                       MOU/                       IPT      Includes         By      Acquisition    Agreed
                                    Receiving          TTP1                     Includes Acquisition    Acquisition    User           to
                                    Acquisition        With Established
                                                                     2
                                                                         IPT2 Acquisition   Prime        User to 3    Agreed4        Exit
              System                 Program           User  an IPT     Charter   User    Contractor    Transition   to TRL        Criteria


     Multiple Event Hard       Air Armaments            Yes      Yes        No       Yes         Yes   No (Cat 2B)      Yes          Yes
     Target Fuze (MEHTF)       Center (AAC)                                                              (FY02)


     Powered Low-Cost          Air Armaments            Yes      Yes        No       Yes         Yes   n/a10 (Cat 2B)   Yes          Yes
     Autonomous Attack         Center (AAC)
     System (P-LOCAAS)

     Precision Direct Attack   Air Armaments            Yes      Yes        No       Yes         Yes    Yes (Cat 1)     Yes          Yes
26




     Munition (PDAM)           Center (AAC)                                                              (FY03)


     Situational Awareness     Aeronautical             Yes      Yes        No       Yes         Yes        n/a7        No           Yes
     from Enhanced Threat      Systems Center
     Information (SAFETI)      (ASC)

     Surface Target Ordnance Air Armaments              Yes      Yes        No       Yes         Yes   No (Cat 2A)      Yes          Yes
     Package (STOP)          Center (AAC)                                                                (FY02)




     Note: See footnotes at the end of the appendix.
                                                         Advanced Technology Demonstrations (cont’d)
                                                                                                                                        Acquisition
                                                         MOA/                                      IPT2        Funding                    User
                                                         MOU/1
                                                                                    IPT2         Includes         By      Acquisition    Agreed
                                    Receiving            TTP                      Includes      Acquisition   Acquisition    User           to
                                    Acquisition          With Established
                                                                       2
                                                                           IPT2 Acquisition        Prime       User to 3    Agreed4        Exit
             System                  Program             User  an IPT     Charter   User        Contractor    Transition   to TRL        Criteria


     Strike Helmet 21          Aeronautical               Yes       Yes       No       Yes         Yes        No (Cat 2A)     Yes          Yes
     Technologies (SH21)       Systems Center                                                                   (FY04)
                               (ASC)

     Targets Under Trees       Aeronautical              Draft5     Yes      Draft5    Yes         Yes        No (Cat 2B)     No            No
     (TUT)                     Systems Center                                                                   (FY04)
                               (ASC)

     Targets Under Trees       Electronic Systems        Draft5     Yes      Draft5     No             No     No (Cat 2B)     No            No
     (TUT) (cont’d)            Center (ESC)                                                                     (FY04)
27




       Note: See footnotes at the end of the appendix.
                                                                   Critical Experiments
                                                                                                                                        Acquisition
                                                         MOA/                                      IPT2        Funding                    User
                                                         MOU/1
                                                                                    IPT2         Includes         By      Acquisition    Agreed
                                    Receiving            TTP                      Includes      Acquisition   Acquisition    User           to
                                    Acquisition          With Established
                                                                       2
                                                                           IPT2 Acquisition        Prime       User to 3    Agreed4        Exit
                                     Program             User  an IPT     Charter   User        Contractor    Transition   to TRL        Criteria
              System

     High Speed Penetrator     Air Armaments              No       No      n/a6       n/a6         n/a6          n/a10         No           No
     with Precision Fuzing     Center (AAC)
     (HSP)

     Hyperspectral             Electronic Systems         No      Yes       No        Yes          Yes           n/a10         No           No
     Information Fusion        Center (ESC)
     (HSIF)

     Joint Battlespace         Electronic Systems         No      Yes       No        Yes          n/a8          n/a10         No           No
     Infosphere (JBI)          Center (ESC)
28




     Multi Intelligence        Electronic Systems         No       No      n/a6       n/a6         n/a6          n/a10         No           No
     Fusion for Time           Center (ESC)
     Critical Targeting

     Nighttime Agile Laser     (not commissioned)         No      Yes        No           Yes      Yes           n/a10         No           No
     Eye Protection
     (NALEP)

     Programmable              Air Armaments             Yes      Yes       Yes        Yes         Yes           n/a10        No           Yes
     Integrated Ordnance       Center (AAC)
     Suite (PIOS)



       Note: See footnotes at the end of the appendix.
     1
       Memorandum of Agreement; Memorandum of Understanding; Technology Transition Plan
     2
       Integrated Product Team
     3
       The notation of “no” indicates that transition funding for the emerging technology was not specifically identifiable in budget documentation at the
        respective program office.
     4
       Technology Readiness Level
     5
       Draft documentation was not counted as a positive response.
     6
       Not applicable because no IPT was created for this program.
     7
       Not applicable because this technology was completed at AFRL prior to FY03.
     8
       Not applicable because there is no acquisition prime contractor for this program.
     9
       Due to a transition within AFRL, this technology required no coordination. As such, all data points are not applicable.
     10
        Not applicable because budgets for FY05 and beyond were not formalized at the time of the audit.
29
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense for Advanced Systems and Concepts
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Air Force
Assistant Secretary of the Air Force for Acquisition
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Commander, Air Force Materiel Command
  Commander, Aeronautical Systems Center
  Commander, Electronic Systems Center
  Commander, Air Force Research Laboratory
  Commander, Air Armament Center
Commander, Air Combat Command
Commander, Air Force Special Operations Command
Commander, Air Force Command and Control and Intelligence, Surveillance, and
  Reconnaissance Center
Commander, Air Mobility Command
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget




                                        30
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        31
Department of the Air Force Comments
                                       Final Report
                                        Reference




                     33
Final Report
 Reference




               34
     Final Report
      Reference




35
Final Report
 Reference




               36
     Final Report
      Reference




37
Final Report
 Reference




Page 22


Page 24




Page 25




Page 25




               38
Team Members
The Acquisition Management Directorate, Deputy Inspector General for Auditing
of the Department of Defense prepared this report. Personnel of the Office of the
Inspector General of the Department of Defense who contributed to the report are
listed below.

Bruce A. Burton
Roger H. Florence
David H. Griffin
Rudolf Noordhuizen
Amber M. Lyons
Patrick M. Sampson
Constance Wojtek
Jacqueline N. Pugh
